v
'* •

Supreme Court. U.S.
FILED

JUL 2 8 2020
No.

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
#

Rich Gustafson,
Petitioner,

v.

State of Oregon,
Respondent,

sf: %

ON PETITION FOR WRIT OF CERTIORARI TO
THE OREGON STATE COURT OF APPEALS
Sfc 5{5

PETITION FOR WRIT OF CERTIORARI

RICHARD BRIDGEMAN
GUSTAFSON
Pro Se
SID #07193901
Two Rivers Correctional Institution
82911 Beach Access Rd.
Umatilla, OR 97882

ELLEN F. ROSENBLUM #753239
Attorney General
BENJAMIN GUTMAN #160599
Solicitor General
PEENESH H. SHAH #112131 ___
Assistant Attorney General
400 Justice Building
1162 Court Street NE
Salem, OR 97301
peenesh.h.shah@doj .state.or.us
Phone: (503) 378-4402
Attorneys for Plaintiff-Respondent
Writ of Certiorari Cover Page A159489

4
QUESTION PRESENTED

If a criminal trial in the State of Oregon did not guarantee a unanimous verdict,
leading defendant to choose a bench trial, was this unconstitutional under the sixth and
fourteenth amendment?

Quoting from Ramos v. Louisiana: “[T]he Sixth Amendment requires
unanimity, and that the guarantee is fully applicable against the States under the
Fourteenth Amendment. ” and that “ifthe jury trial right requires a unanimous
verdict in federal court, it requires no less in state court. ”

i - Writ of Certiorari Question Presented: A159489-R. Gustafson 07193901

I

{
PARTIES TO THE PROCEEDING

The petitioner is Richard B. Gustafson, the defendant and defendant-appellate in
the courts below. The responded is the State of Oregon, the plaintiff and plaintifappellee in the courts below.
[ x ] All parties appear in the caption of the case on the cover page

(

T

ii- Writ of Certiorari-Yartits To The Proceeding-A159489-R. Gustafson 07193901

*
-V

TABLE OF CONTENTS

. QUESTION PRESENTED

..... ..

1

PARTIES TO THE PROCEEDING

11

TABLE OF CONTENTS

,.

in

TABLE OF AUTHORITIES :
OPINION BELOW

2

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED.. 3
STATEMENT OF THE CASE

5

REASON FOR GRANTING THE WRIT

7

12

CONCLUSION
CERTIFICATE OF SERVICE

APPENDICES
APPENDIX A: DECISION OF THE APPELLATE COURT:
State v. Gustafson, 300 Or App 438, 452 P.3d 962 (Or. App. 2019)

APPENDIX B: OREGON SUPREME COURT DENIAL
APPENDIX C: TRIAL COURT TRANSCRIPT EXCERPTS
APPENDIX D: CRUEL AND UNUSUAL PUNISHMENT COMPARISONS
APPENDIX E: PRO SE PETITION FOR REVIEW
iii- writ ofcertiorari-tab\e of content- A159489-R. Gustafson 07193901

i

l
TABLE OF AUTHORITIES

Cases
Griffith v. Kentucky, 479 U.S. 314, 107 S. Ct. 708

Ramos v. Louisiana No. 185924: Supreme Court (April 2020)
State v. Dick, 305 Or App 248 (July 2020)

i,7,8,9,10
8

.................

State v. Rodriguez/Buck 347 Or 58, 217 P3d 659 (2009)
State v. Ulery, 366 Or 500 (June 2020)

,. 9 .

...............

Appendix D-l, D-15
7

...................

State v. Williams, 366 Or 495 (June 2020) ...... .........

...<............................ .........

State v. Woodley 306 Or App 458, 760 P.2d 884 (1988)

Appendix D-l & D-l0

State v. Worley, 304 Or App 860 (June 2020)

.........

7

Statutes
28 U.S.C. § 1257 (a)

..........................

U. S. Constitution Sixth Amendment ..... .
U.S. Constitution Eighth Amendment
U.S. Constitution Fourteenth Amendment ....

2

3,5,7,10,11
3,5
3,9,10

Oregon Constitution: Article I, section 16

3,5

ORS 163.415(a,b) ..................................

... 4,Appendix D-l4

ORS 163.427(a)

...................................

4,5, Appendix D-l4

ORS 163.305 (6)

...................................

. 4,5, Appendix D-l4

Page 1- Writ of Certiorari- -A159489-R. Gustafson 07193901

i
S'

PETITION FOR WRIT OF CERTIORARI
Petitioner, Richard B. Gustafson respectfully petitions for a Writ of Certiorari to
the State of Oregon Appellate court in State v. Gustafson, 300 Or App 438, 452 P.3d 962
(Or.App. 2019).

•

OPINION BELOW
The opinion of the Oregon Appellate Court to review the merits appears at
Appendix “A” to the petition and is reported at State v. Gustafson, 300 Or App 438, 452
P.3d 962 (Or. App. 2019). The Oregon State Supreme Court’s order denying review of
that decision is in Appendix “B”.
JURISDICTION
- ».* /

The date on which the state appellate court decided defendants case was
November 06, 2019. A timely Petition for Review to the Oregon Supreme Court was >
thereafter denied on May 21, 2020 and a copy of the order denying review appears at
Appendix “B”. The court’s jurisdiction is pursuant to 28 U.S.C. § 1257 (a).

Page 2- Writ of Certiorari- -A159489-R. Gustafson 07193901

■:? i
•

• S'

i
'(

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment (1791): In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defense.

Eighth Amendment (1791): Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted.

Fourteenth Amendment (1868): Section 1: All persons bom or naturalized in the United
States and subject to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

Oregon: Article l Section 16. Excessive bail and fines; cmel and unusual punishments;
power of jury in criminal case. Excessive bail shall not be required, nor excessive fines
imposed. Cmel and unusual punishments shall not be inflicted, but all penalties shall be
proportioned to the offense.—In all criminal cases whatever, the jury shall have the right
to determine the law, and the facts under the direction of the Court as to the law, and the
right of new trial, as in civil cases.

Page 3- Writ of Certiorari- -A159489-R. Gustafson 07193901

A

'-i

ORS 163.427(a) Sexual abuse in the first degree (Oregon Revised Statutes (2019 Edition)
A person commits the crime-of sexual abuse in the first degree’when that person
subjects another person to sexual contact and they are under 14 years of age.

Sexual abuse in the third degree is a Class B Felony

ORS 163.415 (a,b) Sexual abuse in the third degree (Oregon Revised Statutes (2019 Edition)
A person commits the crime of sexual abuse in the third degree if:
(a) The person subjects another person to sexual contact and:
(A) The victim does not consent to the sexual contact; or
(B) The victim is incapable of consent by reason of being under 18 years of age;
or
n,®

(b) For the purpose of arousing or gratifying the sexual desire of the person or another'
person, the person intentionally propels any dangerous substance at a victim without
the consent of the victim.
3S

Sexual abuse in the third degree is a Class A misdemeanor.

ORS 163.305 (6) Definitions (Oregon Revised Statutes (2019 Edition))
As used in chapter 743, Oregon Laws 1971
Sexual Contact is defined as: “Any touching of a sexual or other intimate part of a
person or causing the actor for the purpose of arousing or gratifying the sexual desire of
either party;”

Page 4- Writ of Certiorari- -A159489-R. Gustafson 07193901

4

/

►

STATEMENT OF THE CASE
\ •

The petitioner, Richard B. Gustafson, was charged with 11 counts of child sex
abuse, 22 counts of encouraging child sex abuse and 1 count of possession of cocaine.
Defendant pleaded “Not Guilty”. On the day of the trial he was offered the option of a
bench trial or a jury trial. The jury trial offered to the defendant was allowed to convict
with a non-unanimous jury which has now been recognized under Ramos v. Louisiana to
be unconstitutional.
With the assistance of a court appointed lawyer, Mr. Gustafson appealed his case
to the Oregon Appellate Court. His appellate counsel argued four assignments of error,
arguing defendant's Fourth Amendment rights were violated, that he should be acquitted
on all counts of encouraging child sex abuse in the first-degree and that many specific
counts should be merged. In addition, defendant provided a pro se supplemental appeal
brief. Mr. Gustafson argued that the charges of child sex abuse in the first degree did not
meet the criteria listed under ORS 163.427(a) and ORS 163.305 (6) and that the sentence
was cruel and unusual under the Eight Amendment and under Oregon's Article I, section
16. He raised the argument again in his pro se Petition for Review, (see appendix D,E)
Though defendant did not challenge the issue of the constitutionality of a nonunanimous jury at the time of trial or on appeal, in State v. Williams 366 Or 495 the
.Oregon Supreme Court exercised their discretion “to review defendant's Sixth
Page 5- Writ of Certiorari- -A159489-R. Gustafson 07193901

*
*

Amendment challenge, even though defendant failed to raise that argument in the trial
court and in his opening brief in the Court of Appeals.”
On November 6, 2019, the Court of Appeals denied all of the defendants
arguments that were raised. A Petition for Review to the Supreme Court of Oregon was
filed by defendant's attorney on January 21, 2020. The Petition for review was denied
on May 21, 2020.
Though defendants petition for review was denied, State v. Williams was
accepted due to the recent change in law with the decision of Ramos v. Louisiana. “The
petition for review is allowed, limited to the issue of the appropriate disposition of this
^ -i

case in light of Ramos v. Louisiana. The decision of the Court of Appeals is reversed.
The judgment of the circuit court is reversed, and the case is remanded to the circuit

i ' \v:

court for further proceedings.” State v. Williams 366 Or 495

!.

Page 6- Writ of Certiorari- -A159489-R. Gustafson 07193901

O .

I
*

REASONS FOR GRANTING PRO SE WRIT OF CERTIORARI

Defendant believes that his case has merit under new Federal law brought forth
by Ramos v. Louisiana No. 18-5924. Defendants attorney understood that a 10-2 or 111 verdict would constitute a guilty verdict under Oregon's non-unanimous jury
conviction law and persuaded defendant to proceed in a bench trial rather than a jury.
trial. Reluctantly, but in trusting his attorney, defendant took this advice.
The court has made plain error in riot having as one of its options for defendant a
trial by unanimous jury as required by the Sixth Amendment. “[T]he question of
whether a defendant is entitled to reversal even where the challenge to a non-unanimous.
verdict was not preserved in the trial court and was raised for the first time on appealthat is, whether such a challenge may be raised as 'plain error' that an appellate court
should exercise its discretion to correct. We concluded that the answer is yesr State v.
Ulery, 366 Or 500. In State v. Worley, 304 or Add 860 “The Oregon Supreme Court
concluded that a trial court's acceptance; of a non-unanimous verdict constituted plain
error and exercised discretion to correct that" error in light of the gravity of the error and
i: f

because failure to raise the issue in the trial court did not weigh heavily against •
correction as the trial court would not have been able to correct the error under ,
controlling law.”

Page 7- Writ of Certiorari- -A159489-R. Gustafson 07193901

i
%

The acknowledgment above of the trial court not being “able to correct the error
under controlling law” is admission to the how the court was conducting their trials.
The defendant in the given circumstance of the “controlling law” did not have an option
of a unanimous jury under such law and though choosing a bench trial, under Federal
Law, he should have been entitled to the option of a trial by unanimous jury. He was riot
afforded such a trial.
Defendant realizes that he did not choose a non-unanimous jury trial, which was
offered to him.by the State of Oregon in his 2014 trial. But a unanimous jury trial was
not, by undermining law, a choice. Even if defendant would have raised the legal issue
of not being offered a unanimous jury trial prior to the Ramos v. Louisiana decision, he
would have been denied such a request as is shown by the Appellate Courts decision in
State v. Dick. -

,.

,

-

. ■
■

“At trial, defendant requested the court to instruct the jury that it needed to
reach unanimous verdicts, which the court declined to do. The jury
returned non-unanimous verdicts on all counts. On appeal, defendant
assigned error to the court's acceptance of non-unanimous verdicts, and we . ■
summarily affirmed based on then-existing precedent. After we issued the
•appellate judgment and the Oregon Supreme Court denied review, •
defendant petitioned fort certiorari in the United States Supreme Court.
The Court allowed certiorari, vacated this court's judgment, and remanded
the case for further consideration in light of Ramos v. Louisiana.” State v.
Dick, 305 Or App 248 (July 2020).
■

The question asked in Ramos v. Louisiana No. 18-5924 is “[h]ow does the state
[of Oregon] deal with the fact [the Supreme] Court has said 13 times over 120 years.that
the sixth Amendment does require unanimity?” iVew cases have inundated the Oregon
Courts since the Supreme Court decision in April of 2020 where they “took this case to
Page 8- Writ of Certiorari- -A159489-R. Gustafson 07193901

•

$

J

decide whether the Sixth Amendment right to a jury trial-as incorporated against the
States by. way of the Fourteenth Amendment-requires a unanimous verdict to convict a .
defendant of a serious offense.” Ramos v. Louisiana No. 185924. The US Supreme Court
recently decided an important question of federal law in the Ramos v. Louisiana case
that has not been, but should be looked upon in defendants case due to the fact that at the
time of trial, Oregon law conflicted with the relevant decisions of this court. This
Ramos decision upheld in April of 2020 has shed light on the the state of Oregon in their
refusal to acknowledge that their continued practice of non-unanimous jury trial was . ■
unconstitutional.
If defendant had been offered by rule of law a proper jury trial, his attorney as •
well as defendant would have opted for such a trial. Regardless of defendant choosing
a bench trial, based on the circumstances, the State of Oregon should be mandated by
the law set forth infhe United States Constitution to require the application of the
Ramos v. Louisiana decision in the same retroactive manor as other cases that it has been
applied within the appeal process. As explained in Griffith y. Kentucky. 479 U.S. 314
107 s.Ct. 708 “[a] new rule for the conduct of criminal prosecutions, such as the ruling
in Batson, applies retroactively to all cases, state or federal, pending on direct review or
not yet final, with no exception for cases in which the new rule constitutes a “clear .
break” with the past.”. In addition Grifftth v. Kentucky explains that the “[fjailure to
apply a newly declared constitutional rule to criminal cases pending on direct review

Page 9- Writ of Certiorari- -A159489-R. Gustafson 07193901

>
\

violates basic norms'of constitutional' adjudication.’’ By requiring the Ramos v.
Louisiana case to be applied to defendant's case, true due process under the United
States Constitution will fairly be served.
Objectivity in a legal setting means fairness and impartiality. The person who'
fails'to act objectively has allowed seif-interest or prejudice to cloud their judgment. By
attempting to turn legal reason into a system that would interpret rules to serve the . ."
courts benefit does not invoke justice. In the upcoming years there will be a large
financial burden placed on the Oregon courts. However, if the Oregon Courts would • ;
have upheld the law of the US constitution by applying the Sixth & Fourteenth

• '-

Amendments, there would be no such issue. Defendant would have had a constitutional
trial and would have chosen'a jury trial and would have been tried legally.-

■ t

Just because Oregon has retained Apodaca for over 70 years doesn't mean it did •
o

so unconstitutionally. “Oregon may need to retry defendants convicted of felonies by - 1
non-unanimous verdicts whose cases are still pending on direct appeal.” Ramos v.
Louisiana No. 185924. Defendant who was subjected to a bench trial, whether
persuaded by attorney or decided upon himself after weighing the risk, of a non- - •

•■ . "
, ,

unanimous guilty verdict, never had the option of a unanimous jury trial as is required
by the Sixth Amendment. “And, as we've seen af the time of the Amendment's adoption,
the right to a jury trial meant a trial in which the jury renders a unanimous verdict.”
RamOs v. Louisiana NO. 185924. Defendant was not provided this constitutional right

Page 10- Writ ofCertiorari- -A159489-R. Gustafson 07193901

• -

4

P
and if a federal law applies to one individual regardless of the time and place it should
apply to all.
The Supreme Court realized that the error of not following the constitutional
requirement of the Sixth Amendment was not harmless and that there are many other
like cases. Currently there are hundreds of cases being addressed. In Ramos v.
Louisiana No. 185924 the US Supreme Court realized that “In the end, the best anyone
can seem to muster against Mr. Ramos is that, if we dared to admit in his case what we
all know to be true about the Sixth Amendment, we might have to say the same in some
others. But where is the justice in that?”
It is imperative that all of us whether a judge, a teacher, a laborer, or a mother or
a father or any walk of life regardless of ethnicity or color, that we all help to uphold our
constitutional rights as they were meant to be upheld. We cannot allow ourselves to be
swayed toward a decision that is politically beneficial nor be complacent with a lack of
action. We must dare to admit that there has been injustice for too long and that there
needs to be a sincere correction that addresses all that have been affected.
The Oregon judicial system has made a critical and strident error in their
misconduct of court procedures by not following federal law. Unless defendant had
been found guilty in a jury trial by a 12-0 unanimous verdict, the trial, by not being
conducted by the rule of federal law should be nullified and defendants convictions
should be reversed and remanded.

Page 11- Writ of Certiorari- -A159489-R. Gustafson 07193901

i

1
CONCLUSION.

• ’ •

For the foregoing reasons, the petition for Writ of Certiorari should be granted

Sincerely,

RichardB. Gustafson
.
SID#: 07193901
TRCI
82911 Beach Access Rd.
Umatilla; OR 97882

r

.;

t

,

;

!

Page 12- Writ of Certiorari- -A159489-R. Gustafson 07193901

,\

